Department of          Health and Human Services
                  OFFICE OF
            INSPECTOR GENERAL




            OPERATION RESTORE TRUST


      REVIEW OF COSTS CLAIMED BY
        HOME HEALTH CARE INC.




                  ~ SERVIC£S




                ~ J(( Inspector
                ~o.é'"           General
                       t JUNE GIßBS BROWN
                 ~~~~~:: SE~~~~~~~;96
                               DEPARTMENT OF HEALTH &. HUMAN SERVICES                                   OHice of Inspector General
('.4"""I~'t
 ."
 '. '..
          ''''''''0

                                  SEP 30 199                                                            Memorandum
                      Date

                      From   June Gibbs BrolJ - Q¡ 12
                             Inspector Gener tt4 'ö 1t: o-
                      Subject Review of Costs . ed by Home Health Care Inc.
                                                                                     (A-04-95-0 1107)

                             Bruce C. Vladeck
                      To
                             Administrator
                             Health Care Financing Administration



                             This final report provides you with the results of our audit of Home Health Care Services
                             Inc. (HHC) in Hialeah, Florida..

                             OBJCTIV
                             The audit objective was to determine whether the home health care services claimed by
                             HHC met Medicare reimbursement guidelines.

                             SUMARY OF FININGS
                             We randomly selected for review 100 claims submitted by HHC for Medicare
                             reimbursement during the fiscal year (FY) ended December 31, 1993. These claims
                             represent 1,686 home health services. Our review showed that 44 claims or 44 percent of
                             our sample contained 392 services (23 percent of the total services) that did not meet
                             Medicare guidelines, as follows:

                                    ~ 25 percent of the claims were for 285 services which, in the opinion of
                                             medical experts, were not reasonable or necessary;

                                    ~ .14 percent of the claims were for 100 services provided to beneficaries who,
                                             in their own opinion, or in the opinion of medical experts were not
                                             homebound;

                                    ~ 3 percent of the claims were for 3 services which physicians did not
                                             authorize; and

                                    ~ 2 percent of the claims were for 4 serv)ces not provided.


                             Cases in the latter two categories concern us and should be closely reviewed by the
                             Medicare fiscal intermediary (FI).
Page 2 - Bruce C. Vladeck

During the FY ended December 31, 1993, HHC claimed $6.7 millon in 4,550 claims
representing 80,439 services. Based on our review, we estimate that at least $1.2 milion
did not meet the reimbursement guidelines and using the 90 percent confdence interval,
we believe the overpayment is between $1.2 milion and $2 millon.


Although we found documentation that indicated HHC monitored its own employees and
subcontractors, the results of our review indicated that the monitoring was not adequate to
ensure that claims submitted were for services that met Medicare reimbursement
guidelines. Neverteless, the guidelines make contractors, such as HHC, responsible for
the actions of their subcontractors.


We recommend that the Health Care Financing Administration (HCFA) require the FI to
instruct HHC on its responsibilties to properly monitor its subcontractors for compliance
with the Medicare regulations and HCFA guidelines, monitor the PI and HHC to ensure
that corrective actions are effectively implemented, direct the FI to investigate all cases of
possible fraud and refer them as necessary to the Offce of Inspector General's (OIG)
Offce of Investigations (01), and recover all overpayments.

In its written response to our report, HCF A agreed with our recommendations. The
complete text of HCFA's response is presented as Appendix E to this report.

BACKGROUN

Home Health Care Inc.

The HHC is a Medicare certified home health agency (HHA) with a principal place of
business in Hialeah, Florida. The HHC is a proprietary Florida corporation owned and
managed by South Eastern Health Management Associates Inc. The HHC directly and
indirectly employs nurses, aides, therapists, and administrative personnel in Dade County.

A Medicare certified HHA, such as HHC, can either provide home health services itself or
make arrangements with other certified or non-certified providers for home health
services. Most of the services claimed by HHC were provided under contract with non-
Medicare certified nursing groups.

During FY 1993, HHC was reimbursed under the periodic interim payment (PIP) method.
Payments under PIP approximate the cost of covered services rendered by the provider.
Interim reimbursement from Medicare totaled $6.4 mlllion. Interim payments are adjusted
to actual costs based on annual cost reports. The HHC submitted a cost report for
FY 1993 claiming costs totaling $6.7 milion.
Page 3 - Bruce C. Vladeck

Authority and Requirements for Home Health Services

The legislative authority for coverage of home health services is contained in sections
1814, 1835, and 1861 of the Social Security Act; governng regulations are found in
title 42 of the Code of Federal Regulations (CFR); and HCFA coverage guidelines are
found in the Medicare HHA ManuaL.

Fiscal Intermediary Responsibilties

The HCF A contracts with FIs, usually'large inurance companies, to assist thelI in
administering the home health benefits program. The PI for HHC is AEtna Life and
Casualty. The PI is responsible for:

            ~ processing claims for HHA services,

            ~ pedorming liaison activities between HCFA and the HHAs,

            ~ making interim payments to HHAs, and

            ~ conducting audits of cost reports submitted by HHAs.


SCOPE

The objective of the audit was to determine whether the home health care services claimed
by HHC met Medicare reimbursement guidelines. The audit was pedormed under the
auspice of Operation Restore Trust and was initiated by a request from HCFA's Atlanta
Regional Offce and its regional home health intermediary. The individuals who
participated in this audit are shown on Appendix D.

The HHC claimed 80,439 services on 4,550 claims for FY 1993. We reviewed a
statistical sample of 100 claims totaling 1,686 services for 94 different individuals
(6 individuals appeared twice in the sample). We are reporting the overpayment projected
from this sample at the lower limit of the 90 percent confidence intervaL. The claims were
submitted by HHC during the period January 1, 1993 though December 31, 1993.
Appendix A contains the details on our sampling methodology. Appendix C contains the
results and projection of our sample. We used applicable laws, regulations, and Medicare
guidelines to determine whether the services claimed by HHC met the reimbursement
guidelines.

In addition to using the sample to determine the amount of overpayment, we used the
sample to determine the percentage of certain characteristics. Appendix B contains the
details of the results of these projections.
Page 4 - Bruce C. Vladeck

Generally, for each of the 100 claims, we interviewed:


       ~ the beneficiary or a knowledgeable acquaintance,


       ~ the physician who certified the plan of care, and

       ~ the beneficiary's personal physician.


Our interviews included validation of beneficiaries' and physicians' signatures when
necessary.

We interviewed 64 of the 94 beneficiaries. We were unable to interview 30 of the
beneficiaries or a close acquaintance because they were either deceased or had moved out
of the area. We were not able to interview one physician because he had moved out of the
area. This physician certified the plan of care for one beneficiary who appeared twice in
the sample.


We reviewed supporting medical records maintained by HHC for all of the claims in our
sample. The records were also reviewed by the FI's medical personnel to determine
whether the medical records for the claimed services met the reimbursement requirements.

We did not conduct a review of HHC's internal controls. Specifically, we did not review
HHC's policies and procedures to monitor the work pedormed either by their own staff or
subcontractors. However, during our review of medical records, we found documentation
that indicated HHC did monitor its own employees and subcontractors.

Our field work was performed at HHC's administrative office in Hialeah, Florida, and the
FI's office in Clearwater, Florida. Interviews were conducted in the beneficiaries'
residences and the physicians' offces. Our field work was started in January 1995 and
completed in December 1995. Our audit was conducted in accordance with generally
accepted governent auditing standards.

                          DETAILED RESULTS OF REVIEW

Our audit showed that 44 percent of the claims submitted by HHC during FY 1993 did not
meet the Medicare reimbursement requirements.

Based on a statistical sample, we estimate that HHC received overpayments totaling at
least $1.2 million and using the 90 percent confidence interval, we believe the
overpayment is between $1.2 millon and $2 million. Although we found documentation
that HHC monitored its employees and subcontractors, this monitoring was not adequate to
ensure that claims submitted were for services that met Medicare reimbursement
guidelines.
Page 5 - Bruce C. Vladeek

The regulations and guidelines clearly
hold the HHA responsible for
payments made for services performed
by either their own staff or by
                                                  44% OF CLAIMS DID NOT
subcontractors.
                                                   MEET REQUIREMENTS
Criteri for Services Provided By                           Benefcl Not
                                                               Homebound
Subcontractors                                                   14%               Servces Were
                                                                                   Unnecessary
                                                                           ~ or Unreasonable
Section 409.42(g) of title 42 CFR            Servces CImed
                                             Bu Not Provided
             home health services
states that".. .

must be furnshed by, or under
                                                  2%                       U 25%
arrangements made by a participating                                        ~ Physicians Old Not
                                                                                   Autonze the Servce
HHA." Section 200.2 of the Medicare           Servces Met                      3%
HHA Manual states that "In permitting,      Reimbursement
                                              Requirements
home health agencies to furnsh                    56
services under arrangements it was not
intended that the agency merely serve
as a billng mechanism for the other
party. Accordingly, for services
provided under arrangements to be covered the agency must exercise professional
responsibility over the arranged-for services." In addition, the Medicare HHA conditions
of participation at 42 CFR 484.   14(h) set forth the requirements governng home health
services furnshed under arrangements.


Services That Were Not Reasonable or Necessary

Our review showed that 25 of the 100 claims were for 285 services which were not
considered reasonable or necessary by the intermediary's medical review personneL.


The regulations at 42 CFR 409.42 provide that the individual receiving home health
benefits must be "... in need of intermittent skiled nursing care or physical or speech
therapy. . . ." Section 203.1 of the Medicare HHA Manual states that the beneficiary's
health status and medical need as reflected in the plan of care and medical records provide
the basis for determination as to whether services provided are reasonable and necessary;
and section 205.1.B.1 states that "Observation and assessment of the beneficiary's
condition by a licensed nurse are reasonable and necessary skiled services when the
likelihood of change in a patient's condition requires ßkiled nursing personnel to identify
and evaluate the patient's need for possible modification of treatment or initiation of
additional medical procedures until the beneficiary's treatment regime is essentially
stabilized. "
Page 6 - Bruce C. Vladeck

The AEtna medical review personnel reviewed the records for the 25 beneficiaries and
concluded that the medical records did not support the reasonableness or necessity of the
services. The records for 19 of the beneficiaries did not show any instabilties, physician
intervention, or changes in the plan of treatment which would require skilled nursing
services. The records for four of the beneficiaries did not show objective comparative
data to establish that the condition of the beneficiary wil improve, or that the services
were necessary to the establishment of a maintenance program. Two of thè beneficiaries
received psychiatric care from nurses who did not have the proper credentials to provide
psychiatric care.

Services to Beneficiaries Who Were Not Homebound

Our review showed that 14 of the 100 claims were for 100' services to beneficiaries who
were not homebound at the time the services were provided. The interviews of the
beneficiary or a close acquaintance of the beneficiary, and the certifying physician
indicated that the beneficiaries, by their own assessment, or that of the physicians, were
not homebound at the time the services were provided. In all cases, HHC had
documentation, such as the plan of care that indicated the individual needed skilled care
and was homebound.

The regulations at 12 CFR 409.42 provide that the individual receiving home health
benefits must be "... confned to the home or in an institution that is neither a hospital nor
primarily engaged in providing skilled nursing or rehabiltation services...." Title 42 CFR
424.22 states that Medicare pays for home health services only if a physician certifies the
services are needed and that the individual is homebound. The Medicare HHA manual at
section 204.1 contains guidance regarding the "homebound" requirement.

The AEtna medical review personnel reviewed the records for the 14 beneficiaries that we
determined did not meet the homebound requirement. They concluded that the medical
records did not support a homebound determination for 12 of the beneficiaries, and did not
support the need or reasonableness of the services for 2 of the beneficiaries.

We did not interview the personal physicians because the 14 beneficiaries did not have a
personal physician different from the physician who signed the plan of treatment. We
concluded that the 14 beneficiaries did not meet the homebound criteria. Our conclusion
is based on the opinion of medical professionals, as well as the results of beneficiary
interviews which included a description of their daily activities at the time of the services.
Page 7 - Bruce C. Vladeck

Physicians Did Not Authorize the Services

Our review showed that 3 of the 100 claims were for 3 services not authorized by a
physician. In the three cases, the provider rendered and claimed one service in excess of
the services authorized by the physician in the plan of care. .


The laws, regulations, and guidelines recognie that the physician plays an importnt role
in determinng the utilization of services. The legislation specifies that payment for
services may be made only if a physician certifies the services were required because the
individual was homebound and neededskilled nursing care. The regulations (42 CFR
424.22) state that Medicare pays only if a physician certifies the services were needed. In
addition, the regulations at 42 CFR 424.22 require all care to follow a physician's plan of
care.

We discussed these cases with AEtna offcials and they advised that claims not duly
authorized should be denied.


Services Claimed but Not Provided

Our review showed that 2 of the 100 claims were for 4 services that were not provided.
In tlc tWI) cases, the medical records maintained by HHC contained the rel.uired
documentation including nurses' notes and signatures of the beneficiaries indicating that
the services provided were less than those claimed. In one case, four aide services were
claimed; however, only one service was documented. In the other case, eight skilled
nursing services were claimed but only seven were documented.

Effect

Our audit showed that 44 percent of the FY 1993 claims submitted by HHC were
overstated. We projected the sample overpayment amounts to the sampling frame. The
90 percent confdence interval is $1,179,157 to $2,032,423 with a midpoint of
$1,605,790. Using the lower limit of the 90 percent confidence interval, we are
95 percent confident that HHC was overpaid by at least $1,179,157 for unallowed home
health services.


HHC Did Not Properly Monitor Subcontractors

Although documentation found in the fies indicated that monitoring was being done to
ensure that beneticiaries met the homebound and medical necessity criteria to receive HHA
services, it failed to disclose the problems that we found.

The HHA coverage guidelines issued by HCF A provide that the HHA has essentially the
same responsibilities for services provided by subcontractors as for services provided by
their salaried employees. During reviews of the beneficiaries' medical records maintained
Page 8 - Bruce C. Vladeck

by the HHA, we found documentation that showed HHC did monitor subcontractors.
However, in several instances the documentation showed that the beneficiaries were
stable after an initial period of covered care, usually 3 weeks, yet no action was taen to
discharge them until the certification period was over. We also found several instances


discrepancies. .
where the services claimed were either more than those actually provided, or more than
what was ordered by the physician, and the monitoring visits did not explain the


                                 . RECOMMNDATIONS
We recommend that HCFA:

       o Require the FI to instruct HHC on its responsibilities to properly monitor its
              subcontractors for compliance with Medicare regulations and HCF A
              guidelines.

       o Monitor the FI and HHC to ensure that corrective actions are effectively
             implemented.

       o Direct the FI to investigate all cases of possible fraud and refer them as
              necessar to the 0 I G' s 0 i.

       o Recover all overpayments.

In its written response to our report, HCF A agreed with our recommendations. The
complete text of HCFA's response is presented as Appendix E to this report.
APPENDICES
                                                                              APPENDIX A

                          AUDIT OF HOME HEALTH CARE INC.
                             SAMPLING METHODOLOGY

OBJCTIV:
The sample objective was to estimate overpayments for claims that did not .meet Medicare
reimbursement requirements. To achieve our objective, we selected a statistical sample of
home health claims from a universe of home health claims submitted by HHC during the
FY ended December 31, 1993. We obtained claim documentation and interviewëd
beneficiaries and physicians identified in the claim. We used the results to project the
overpayments for services that were not reimbursable to HHC during the FY ended
December 31, 1993.

POPULATION: :

The universe consisted of 4,550 HHA claims representing $6,370,775 in benefits paid by
the PI to HHC during the FY ended December 31, 1993.

SAMPLING UNIT:

The sampling unit was  a paid home health claim for a Medicare beneficiHry. A paid claim
included multiple services and items of cost for the home health services provided.

SAMPLING DESIGN:

A simple random sample was used.

SAMPLE SIZE:

A sample of 100 claims.

ESTIMATION METHODOLOGY:

We used the cost per visit for each type of service reported by HHC in the unaudited cost
report for FY ended December 31, 1993. For the unallowed services on a sample unit,
we computed the amount of error by multiplying the number of unallowed services for
each type of claim by the cost reported by HHC in the unaudited cost report for FY ended
December 31, 1993.

Using the Department of Health and Human Services, OIG, Oftce of Audit Services
Variables Appraisal Program, we estimated the overpayments that either did not meet
reimbursement requirements, were °not authorized. or were not rendered.
                                                                                      APPENDIX B
                                                                                          Page 1 of 2


                                            AUDIT OF HOME HEALTH CAR INC.
                                                      ATTRIBUTES PROJECTIONS


REPORTING THE RESULTS:

We used our random sample of 100 claims out of 4,550 claims to project the occurrence of
certin types of errors. The lower and upper limits are shown at the 90         percent copfidence
leveL. The results of these projections are presented below:


Claims That Did Not Meet the Requirements


Quantity Identified in the Sample                                                    44
Point Estimate                                                                       44.0%
Lower Limit                                                                          35.6%
Upper Limit                                                                          52.6%


Services That Were Not Reasonable or Not Necessary


Quantity Identified in the Sample                                                    25
Point Estimate                                                                       25.0%
Lower Limit                                                                          18.1 %
Upper Limit                                                                          33.1 %



Services to Beneficiaries Who Were Not Homebound

Quantity Identified in the Sample                                                    14
Point Estimate                                                                       14.0%
Lower Limit                                                                           8.7%
Upper Limit                                                                          20.9%


Services That Were Not Properly Authorized by Physicians

Quantity Identified in the Sample                                                     3
Point Estimate                                                                        3.0%
Lower Limit                                                                           0.8%
Upper Limit                                                                           7.5%
                                                          APPENDIX B
                                                              Page 2 of 2


                          AUDIT OF HOME HEALTH CAR INC.
                                ATTRIBUTES PROJECTIONS


REPORTING THE RESULTS:

Services Claimed but Not Provided

Quantity Identified in the Sample                         2
Point Estimate                                            2.0%
Lower Limit                                               0.4%
Upper Limit                                               6.1 %
                                                                              APPENDIX C


                           AUDIT OF HOME HEALTH CARE INC.
                                V ARIABLES PROJECTIONS


REPORTING THE RESULTS:

We used our random sample of 100 claims out of 4,550 claims to project the value of claims
that did not meet the requirements. The lower and upper limits are shown at the 90 percent
confdence leveL. The results of these projections are presented below:


Claims That Did Not Meet the Requirements


Identified in the sample
  Number of Claims                                                                 44
  Value                                                                       $ 35,292
Point Estimate                                                               $1,605,790
Lower Limit                                                                  $1,179,157
Upper Limit                                                                  $2,032,423
                                                                          APPENDIX D


                      MAJOR CONTRIUTORS TO THIS REPORT


From HHSOIG OAS              Roy C. Wainscott, Region iv HCFA Audit Manager
                               (404) 331-2446 ext. 106
                             Albert Bustilo, Senior Auditor
                             Mario Pelaez, Auditor in Charge
                             Catherine Burside, Auditor
                             James Duncan, Auditor
                             Maritza Hawrey, Auditor
                             Lourdes Puntonet, Auditor

From HCF A Region iv         Rita Brock-Perini, Nurse Consultant
                             Isabel Frank, Nurse Consultant
                             Jerri Devon, Nurse Consultant

From the Regional Home
Health Intermediary          Theresa S. Ginnetti,. RN Supervisor Benefit Integrity
                             Jane Dallara, RN
                             Minnie Johnson, RN
                             Veronica Lozado, Analyst
                             Sandi Maitland, RN
                             Karen McCall, LPN
                             Lori Peters, RN
                             Mary Tennies, RN
                                                                                                 APPENDIX E
  "\1.1\'/(.'1



                                                                                           Health Care Financing Administrati(
...,,::~
"(' À- DEPARTMENT OF HEALTH &. HUMAN SERVICES
                                                                                           The Administrator
                                                                                           Washington, D.C. 20201




                 DATE             JUL 26 199

                 TO:              June Gibbs Brown
                                  Inspector General

                 FROM:            Bruce C. Vladen ~ . ~
                                  Admstrator '~ v-

                 SUBJECT: Office of Inspector General (OIG) Draft Report "Review of Costs Claimed
                                  by Home Health Care, Incorporated," (A-04-95-01 107)

                 We reviewed the above-referenced draf report which exames whether the home health
                 care servces claimed by Home Health Care, Incorporated (HHC) in Hialeah Florida, met
                 Medicare payment gudelines. As you know, ths study was conducted with the active
                 parcipation of the Health Care Financing Administration staff as par of Operation
                 Restore Trust.

                 Our comments on the report recommendations are attached. Than you for the
                 opportity to review and comment on ths report.


                 Attachment




                                                      IG
                                                      EAlG
                                                      SAlG =;
                                                      PDIG
                                                      DlO-AS                                              w-
                                                      DIG.EC                                 C               .     .,
                                                      DIG.EI                             ci rr:           , .-
                                                      DIG-OJ                             ~                c; "J     ,

                                                      DIG-I,';P
                                                      AIG-LC -+                          r" .                      .-
                                                                                         .~                        .-
                                                      OGCíiG                                     ,
                                                      ExccSec --                         : ;-.
                                                                                          r- ;,           '0       -'
                                                                                                                        :

                                                      Date Sent --                               ::        .r:
                                                                                                     e      I',)
                                                                                                     .'     co
                                                                        APPENDlX E
                                                                        PAGE 1 of 3



              Health Care Financing Administration (HCFA) Comments on
            Office of Inspector General (01G) Draf Report. "Review of Costs
                Claimed by Home Health Care, Incorporated," (A-04-95-0) ) 07)




OIG Recommendation #)
HCF A should requie the fiscal intermediai (F) to intrct Home Health Care, Inc.
(HC) on its responsibilties to properly. morutor its subcontractors for compliance with
Medicare reguations and HCFA gUdelies.

HeFA Response
We concur. On March 26, Äetna inormed HHC of the review fidigs on the specific
30 sample cases, includig 'the reasons for servces determed to be non-covered, the
applicable HCF A home health manual instrctions and guidelines as well as the
oveipayments on each of the clais. Tls notice also included a sumaration of the
fidigs of the review for educational puroses and extended an offer to discuss any
questions that.the provider had about these findigs or Aetna's determinations.

Moreover, the HCF A Regional Offce (RO) will:

       1. Refer these fidigs to the Florida State Agency and request an evaluation
                ofwhether HHC's failure to properly oversee the pedormance of its
                subcontractors should be addressed as a violation of certfication standards
                and, if so, proper corrective actions.

       2. Ensure that Aetna conducts focused medical review of futue claims from
                HHC.
                         I

OIG Recommendation #2
HCFA should monitor the FI and HHC to ensure that corrective actions are effectively
implemented.'

HCFA Response
We concur., The HCFA RO, through Operation Restore Trust (ORT) and other means, is
closely monitorig and supportg the activities of Aetna to ensure that appropriate
corrective actions are taken with HHC and other home health agencies (HHAs). This
includes the detennination and recoupment of overpayments, and coordination with law
enforcement/investigative entities.

To accomplish this, AetIia has been instructed to infoIln and work closely with the HCFA
ORT Satellite Offce Staff in Miami on all Florida HHA cases, including HHC's.
                                                                       APPENIHX E
                                                                      PAGE 2 0 ( 3




Page 2


DIG Recommendation #1
Direct the FI to investigate all cases of possible fraud and refer Uiem as necessar to Uie
a I G' s Offce of Investigation.
                        i



HCFA Response .
We concur. On'March 27, Aetna provided inormation to the investigative/law
enforcement entities in South Florida for their use in decidig how.to proceed wiui Uie
six HHs reviewed by aRT and found t.o have problems, includig HHC. Moreover, Uie
HCFA RO and Satellte Offce staff in Miam are working closely with Aetn£and our
oUier Regional Home Health Intermediares to ensure Uiat all appropriate cases are
referred to OIG for investigation.

OIG Recommendation #4
HCFA should recover all overpayments.

HCFA Response
We concur. As indicated above, on March 26, Aetna liutiated recoupment of the
overpayments on the 30 specific clais in the ORT review. Aetna will ¡HUStle recovery
of the projected overpayments for HHC as soon as furher guidance is received from
HCFA and the investigative/law enforcement entities.




                                                                         I

                                                                             I
                                                                           APPENDIX E
                                                                           PAGE 3 of 3



Page 2


GIG Recommendation #3
Direct the FI to investigate all cases of possible fraud and refer them as necessar to the
GIG's Offce of Investigation.

HCFA Response .
We concur. OnoMarch 27, Aetna provided inormation to the investigativellaw
_enforcement entities in South Florida fqr their use in decidig how to proceed witl the
six HHs reviewed by ORT and found t.o have problems, includig HHC. 1Joreover, the
HCFA RO and Satellite Offce staf in Miam are workig closely with Aetna and our
other Regional Home Health Intermediares to ensure that all appropriate cases are
referred to OIG for investigation. '
GIG Recommendation #4
HCFA should recover all overpayments.

HCFA RespoDse
We concur. As indicated above, on March 26, Aetna ÌItiated recoupment of the
overpaymen.ts on the 30 specific clais in the ORT review. Aetna wil pursue recover!
of the projected overpayments for HHC as soon as fuer gudance is received from
HCF A and the investigativellaw enforcement entities.
